CERTIFICATE OF WORD COUNT
NO. TBD
Bank of Louisiana et al.,
Petitioner(s),
v.
Federal Deposit Insurance Corporation,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the BANK OF LOUISIANA ET
WRIT OF CERTIORARI contains 1334 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
AL. PETITION FOR

I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
June 26, 2019

SCP Tracking: Scott-300 St. Charles Avenue-Cover White

